                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                     Audit of Funding Provided by the
                                  American Recovery and Reinvestment Act
                                    for the Bureau of Consular Affairs
                                         Passport Facilities Project

                                            Report Number AUD/CG-12-25, March 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and the Broaocasting Board of Governors

                                                                Office of Inspector Gelleral


                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one ofa series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General ' s (orG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors .

       This report addresses whether the Department of State complied with requirements for
source selection, posting of pre-award and post-award notices, and contract administration and
whether it had sufficient management controls over contracts issued with American Recovery
and Reinvestment Act (Recovery Act) funds . Recovery Act funds of approximately $15 million
were obligated to open five new Bureau of Consular Affairs passport facilities, including
equipment purchases, and to expand two existing facilities. The report is based on interviews
with employees and officials of relevant agencies and institutions, direct observation, and a
review of applicable documents.

       orG contracted with the independent public accountant Cotton & Company, LLP, to
perform this audit. The contract required that Cotton & Company perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General ofthe United States. Cotton & Company's report is included.

       Cotton & Company identified three areas in which improvements could be made:
complying with all relevant Federal laws and regulations, including those of the Recovery Act;
having adequate processes and systems in place to collect information required to be reported by
the Recovery Act; and providing complete and accurate information as required by the Recovery
Act.

       OIG evaluated the nature, extent, and timing of Cotton' s work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate . orG concurs with Cotton's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. orG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                          Harold W. Geisel
                                          Deputy Inspector General
                                      UNCLASSIFIED





Audit of Funding Provided by the American Recovery and Reinvestment Act for the
Bureau of Consular Affairs Passport Facilities Project



Office of Inspector General
U.S. Department of State
Washington, DC

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of
Department of State (Department) compliance with Federal, Department, and American
Recovery and Reinvestment Act (Recovery Act) acquisition management practices on the
Bureau of Consular Affairs Passport Facilities project. We evaluated the Department’s
performance in complying with source selection, pre-award and post-award notices, contract
administration, and management control processes for contracts funded though the Recovery
Act.

This performance audit, performed under Contract No. S-AQMPD-04-D0035, was designed to
meet the objective identified in the report section titled “Objective” and further defined in
Appendix A, “Scope and Methodology,” of this report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


COTTON & COMPANY, LLP




Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
February 2012

                                      UNCLASSIFIED

                                  UNCLASSIFIED



Acronyms

APC                 Arkansas Passport Center
A/LM/AQM            Bureau of Administration, Office of Logistics Management,
                    Office of Acquisitions Management
A/OPR/FMS           Bureau of Administration, Office of Operations, Office of
                    Facilities Management Services
A/OPR/RPM           Bureau of Administration, Office of Operations, Office of Real
                    Property Management
CA                  Bureau of Consular Affairs
CA/C                Bureau of Consular Affairs, Office of the Comptroller
Department          Department of State
DS                  Bureau of Diplomatic Security
FAR                 Federal Acquisition Regulation
FPDS                Federal Procurement Data System
GSA                 General Services Administration
GWAC                Governmentwide Acquisition Contract
IRM/OPS/ENM/TWD Bureau of Information Resource Management, Office of
                Enterprise Network Management, Telecommunications,
                Wireless, and Data Services Division
LEED                Leadership in Energy and Environmental Design
NPC                 National Passport Center
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
Recovery Act        American Recovery and Reinvestment Act of 2009
RM                  Bureau of Resource Management
RM/GFS/DFS          Bureau of Resource Management, Global Financial Services,
                    Office of Domestic Financial Services
RWA                 Reimbursable Work Authorization
TAS                 Treasury Account Symbol




                                  UNCLASSIFIED

                                    UNCLASSIFIED



                                   TABLE OF CONTENTS


Section                                                                                Page
Executive Summary                                                                      1
Background                                                                             2
Program Review and Observations                                                        2
Objective                                                                              3
Results of Audit                                                                       3
   Finding A: Contract Actions Were Not Recovery Act-Funded as Obligated               3
   Finding B: Required Monitoring Was Not Performed on Recovery Act Contracts of       6
   Less Than $25,000
   Finding C: Required Notices Were Not Posted Consistently                            7
   Finding D: Contract Actions Did Not Consistently Include Required Clauses           8
   Finding E: Passport Facility Was Not Built To Meet Leadership in Energy and
   Environmental Design Criteria                                                       9
List of Recommendations                                                                10
Appendices
A   Scope and Methodology                                                              11
B   Passport Facility Project Obligations and Expenditures as of June 12, 2011         15
C   Telephone Service Contract Obligations, Actions, and Payments From June and July   16
    2011
D   Bureau of Consular Affairs, Office of the Comptroller, Response                    17
E   Bureau of Resource Management Response                                             19
F   Bureau of Administration, Office of Logistics Management, Office of Acquisitions   20
    Management, Response
G   Bureau of Administration, Office of Operations, Office of Financial Management     22
    Services, Response




                                    UNCLASSIFIED

                                             UNCLASSIFIED


                                         Executive Summary

        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct a
performance audit of the Department’s Bureau of Consular Affairs (CA) Passport Facilities
project. This project received funding provided by the American Recovery and Reinvestment
Act of 2009 (Recovery Act). CA worked with the General Services Administration (GSA) to
plan and acquire sites and oversee construction efforts. The Department’s Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), managed contract administration to equip the facilities. In addition, CA, with
assistance from the A Bureau, managed the overall schedule to complete the project.

        The audit objective was to determine whether the Department complied with source
selection, posting of pre-award and post-award notices, and contract administration and had
sufficient management controls over contracts issued with Recovery Act funds. Recovery Act
funds of approximately $15 million were obligated to open new CA passport facilities, including
equipment purchases, at five locations: St. Albans, VT; Buffalo, NY; El Paso, TX; Atlanta, GA;
and San Diego, CA. The funds were also to be used to expand two existing facilities:
Portsmouth, NH, National Passport Center (NPC) and the Hot Springs, AR, Passport Center
(APC). NPC and APC both process passport applications and print passports. Recovery Act
funding covered the initial construction and equipment costs, while out-year operating costs will
be funded through the Border Security Program, which is funded through Department fees
collected for providing consular services.

        While the Department successfully completed and opened all seven passport facilities, its
controls to monitor the project were ineffective in some areas. For example, telephone service
contracts for six passport facilities, amounting to about $1.4 million, were not awarded and paid
for using Recovery Act funding, as had been planned. Additionally, certain Recovery Act
requirements that are specific to the Passport Facilities project were not met as follows:

       Recovery Act-funded contracts of less than $25,000 were not monitored to ensure that all
        contractors complied with required reporting.
       Pre-award and post-award notices were not consistently posted for Passport Facilities
        project contract actions.
       Recovery Act-funded contract actions for the Passport Facilities project did not
        consistently include all required clauses.
       One passport facility was not constructed in accordance with Leadership in Energy and
        Environmental Design (LEED)1 criteria, and the waiver approval was not documented.

      Responses to the draft report were provided by CA; the Bureau of Resource Management
(RM); A/LM/AQM; and the Bureau of Administration, Office of Operations, Office of Real

1
  LEED, or Leadership in Energy and Environmental Design, is an internationally recognized green building
certification system. Developed by the U.S. Green Building Council in March 2000, LEED provides building
owners and operators with a framework for identifying and implementing practical and measurable green building
design, construction, operations, and maintenance solutions. (Source: U.S. Green Building Council at
<www.usgbc.org>.)  
                                                  1
                                             UNCLASSIFIED
                                              UNCLASSIFIED


Property Management (A/OPR/RPM). (The responses are in Appendices D, E, F, and G,
respectively). The bureaus agreed with the report’s six recommendations. Based on the
responses, OIG considers two recommendations closed and four recommendations resolved,
pending further action.

                                                Background
         Recovery Act funds of $14,994,956 were obligated to open the five new CA passport
facilities, including equipment purchases, and expand the two existing locations, which process
passport applications and print passports. Average facility costs were estimated at $1.7 million
to $2.2 million (including equipment) per facility, at an average cost of $220 per square foot.
Construction was expected to begin during FY 2010, with a typical build-out period of
18 months. Recovery Act funding covered the initial construction and equipment costs, and out-
year operating costs will be funded through the Border Security Program, which is funded
primarily through fees the Department collects for providing consular services

        The Department worked with the General Services Administration (GSA) to plan for and
complete site acquisition, procure architectural and engineering services for developing master
plans and design-build documents, and provide construction services and construction
management. All requirements of the agreement between the Department and GSA were
specified in a memorandum of understanding. However, when all of the facilities are completed,
CA will not “own” these facilities. Instead, under the Federal Property and Administrative
Services Act of 1949, as amended,2 GSA will have custody and control of these facilities.
A/LM/AQM would prepare Independent Government Cost Estimates for contracts and
preliminary project schedules. The Bureau of Administration, Office of Operations, Office of
Facilities Management Services (A/OPR/FMS), would report on the progress toward achieving
various “greening,” or environmental, initiatives. The U.S. Department of State American
Recovery and Reinvestment Act of 2009 External Program Plan, issued in June 2009 and
updated in July 2010, stated that all facilities would be designed and constructed in compliance
with the latest energy code and guidelines and in compliance with LEED criteria.

                                Program Review and Observations
        As of May 2, 2011, all five new passport locations and two passport center expansions
had been completed, and all facilities were open. The first facility to be completed was in
Buffalo, which opened on October 4, 2010, and the last facility was in Atlanta, which opened on
May 2, 2011. As of September 30, 2010, which was the deadline for Recovery Act fund
obligations, funds of $14,994,956 had been obligated and allocated to the seven facilities. As of
June 12, 2011, funds of $9,964,099 had been expended, leaving $5,030,857 still to be spent.
(Specific financial information by facility is provided in Appendix B.) In addition to the
Recovery Act monies, CA funded $3,464,525 for these projects, primarily to contract for
services and equipment.




2
    Title II, “Property Management,” sec. 210, 40 U.S.C. § 481.
                                                   2
                                              UNCLASSIFIED
                                       UNCLASSIFIED


        The main goal of the project was to expand the number of locations providing in-person
passport service while meeting Government Accountability Office recommendations to collocate
passport processing units and diplomatic security fraud units. A total of 51 public counters were
built, 15 more counters than originally planned, and the Department was able to combine the
adjudication and fraud units at the Portsmouth NPC and the Hot Springs APC. Additionally,
with the coordination efforts of GSA and CA, the Bureau of Diplomatic Security (DS) was able
to locate offices in all facilities where DS was not already present, that is, El Paso, Buffalo,
St. Albans, and the Hot Springs APC.3
                                          Objective
        The audit objective was to assess the Department’s performance relating to source
selection, pre-award and post-award notices, contract administration, and management controls
over contracts issued with Recovery Act funds. Additionally, we determined the Department’s
compliance with requirements of the Recovery Act, the Federal Acquisition Regulation (FAR),
and Department of State Acquisition Regulations.

                                      Results of Audit
        We determined that passport facilities were opened on a timely basis and that CA closely
monitored each project to ensure that required steps for the following functional areas were
completed to keep projects on schedule: real property management, security, consular systems
and technology, telecommunication, wireless and data services, and furniture. However,
financial accountability and controls over funds were ineffective in some areas and resulted in
contract payment errors and issues of noncompliance with Recovery Act monitoring and
reporting requirements. CA officials stated that they believed they could correct accounting
errors of $1.4 million in instances in which non-Recovery Act funds were used for Passport
Facility projects when Recovery Act funds were available.

Finding A. Contract Actions Were Not Recovery Act-Funded as Obligated
        During our audit, we found that telephone service contracts for six passport facilities
were not awarded and paid for using Recovery Act funds obligated for this purpose. On June 16,
2010, CA provided $1,921,867 in Recovery Act funding for telephone service start-up costs to
the Bureau of Information Resources Management, Operations, Office of Enterprise, Network
Management, Telecommunications, Wireless, and Data Services Division
(IRM/OPS/ENM/TWD). Between August 4 and October 19, 2010, TWD, using a GSA
contracting officer, awarded telephone service task orders of $1,665,927 using a GSA
Governmentwide Acquisition Contract (GWAC), No. GS00T03AHD008,4 without properly
designating the telephone service contracts as Recovery Act-funded actions. We found that the
Bureau of Resource Management, Global Financial Services, Office of Domestic Financial
Services (RM/GFS/DMS), received authorization from CA’s Office of the Comptroller (CA/C)
to fund telephone services with Recovery Act accounting codes. However, RM/GFS/DMS did

3
 In Atlanta and San Diego, DS offices were already located nearby. 

4
 GWAC No. GS00T03AHD008 includes task orders GST0310DS6124, GST0311DS6004, GST0310DS6148,

GST0311DS6019, GST0311DS6020, and GST0311DS6014.

                                            3
                                       UNCLASSIFIED
                                              UNCLASSIFIED


not reimburse the TWD working capital account with the Recovery Act-funded obligations but
incorrectly reimbursed the capital account with funds from CA Special Projects Fund
1044088553.

      As of July 7, 2011, $1,385,743 had been paid on these telephone service task orders out
of CA Special Projects Fund 1044088553. (Obligations, expenditures, contract actions, and
payments are detailed in Appendix C.)

        During our June 22, 2011, exit meeting with officials from CA, the A Bureau, and RM, a
CA/C official stated that the funding source was incorrect and that a journal voucher would be
initiated to correct the funding error.

        We identified $5,030,857 that remained as of June 12, 2011, in unliquidated Recovery
Act obligations for the Passport Facilities project, even though the seven facilities were
completed. (The obligations are shown in Appendix B). In addition to the $1.4 million paid out
of the incorrect account for telephone service expenditures, $3.6 million remains in unliquidated
obligations. For example, the El Paso facility was opened during March 2011, but no funds were
drawn from the GSA Reimbursable Work Authorizations (RWA)5 of $548,050 through June
2011. Also, the Vermont project’s furniture contract obligation of $140,920 had not been
expended, even though the Vermont facility had been open since February 2011. Additionally,
we found a number of contracts with information technology and security vendors that had a
large amount of unliquidated obligations. While contractors may still be submitting invoices, the
Department’s controls did not prevent the incorrect telephone service payments. Therefore, the
potential exists for similar errors to have occurred for the other contracts.

        Because the telephone service task orders were not awarded as Recovery Act funded, the
task orders were not publicized on the Web site FedBizOpps and were not designated in the
Federal Procurement Data System (FPDS) as Recovery Act funded. Therefore, these task orders
or the contract did not include required Recovery Act clauses. Because of these posting
oversights, the transparency and accountability goals of Recovery Act funding actions were not
fully met. The FAR6 requires pre-award notices to be posted on FedBizOpps for contract actions
exceeding $25,000. Office of Management and Budget (OMB) guidance7 for contracts awarded
with Recovery Act funds specifies the clauses required to be included in each contract.

        OMB guidance8 states, “If agencies obligate funds provided under the Recovery Act on
an existing order or contract, including but not limited to a Governmentwide Acquisition
Contract (GWAC), multi-agency contract, GSA Federal Supply Schedule contract, or agency
indefinite-delivery/indefinite-quantity contract, they must be reported as ‘Recovery’ actions per

5
  The RWA is an agreement between GSA and the customer whereby GSA’s Public Buildings Service agrees to 

provide materials and services and the customer agency agrees to reimburse GSA. GSA also identifies the specific 

needs of the agency and establishes financial arrangements.

6
  FAR 5.704, “Publicizing Requirements Under the American Recovery and Reinvestment Act of 2009–

Publicizing-pre-award.” 

7
  OMB Memorandum M-09-15,”Updated Implementing Guidance for the American Recovery and Reinvestment

Act of 2009,” sec. 6.4, issued on April 3, 2009. 

8
  OMB Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and Reinvestment Act 

of 2009,” sec. 6.1(4), issued on Feb. 18, 2009.

                                                   4
                                              UNCLASSIFIED
                                           UNCLASSIFIED


Section 6.2(3).” OMB guidance9 also states, “When entering data in FPDS on any action
(including modifications) funded by the Recovery Act, agencies must enter the Treasury
Account Symbol (TAS) in the Description of Requirement field. . . . Agencies should coordinate
with their budget\finance offices to identify the applicable TAS codes.”

          Recommendation 1. We recommend that the Bureau of Consular Affairs (CA), Office
          of the Comptroller, provide documentation showing that it has taken actions to reverse
          the $1,385,743 incorrectly paid on telephone service contracts from CA Special Projects
          Fund 1044088553 and instead use obligated funds from the Recovery and Reinvestment
          Act.

          Bureau of Consular Affairs Response: CA agreed with the recommendation, stating
          that it had “discussed this issue with . . . RM in June 2011.” CA further stated that at that
          time, RM had “indicated that it would take action to reverse” the incorrectly paid
          amounts. In addition, CA stated that it would “follow up with RM to obtain
          documentation that demonstrates this adjustment has been made.”

          OIG Analysis: OIG considers the recommendation resolved. The recommendation can
          be closed pending OIG’s review and acceptance of documentation confirming that the
          necessary adjustment has been made.

          Recommendation 2. We recommend that the Bureau of Consular Affairs, Office of the
          Comptroller, review the remaining $3.6 million in unliquidated Recovery Act obligations
          ($5 million in unliquidated obligations minus the $1.4 million for the telephone service
          contracts) and determine whether the Bureau of Resource Management, Office of
          Domestic Financial Services, used funds that were not provided by the American
          Recovery and Reinvestment Act to pay for any of the other Recovery Act-obligated
          contracts and services.

          Management Responses: CA concurred with the recommendation, stating that it “will
          work with [RM] to review the remaining $3.6 million in unliquidated Recovery Act
          obligations.”

          In its response, RM also concurred with the recommendation, stating that CA “should
          coordinate with [RM’s] Department Allotment Accounting and identify which
          obligation(s) require correction.”

          OIG Analysis: Based on the responses, OIG considers the recommendation resolved.
          The recommendation can be closed pending OIG’s review and acceptance of
          documentation confirming that the necessary corrections have been made.

          Recommendation 3. We recommend that the Bureau of Administration, Office of
          Logistics Management, Office of Acquisitions Management, request that the General
          Services Administration modify Task Orders GST0310DS6124, GST0311DS6004,
          GST0310DS6148, GST0311DS6019, GST0311DS6020, and GST0311DS6014 for

9
    OMB Memorandum M-09-10, sec. 6.2(3).
                                                5
                                           UNCLASSIFIED
                                                 UNCLASSIFIED


         Contract FA00T03AHD0008 as follows: identify the task orders as funded by the
         Recovery and Reinvestment Act, add the required clauses, ensure that contract actions are
         subsequently publicized in accordance with Recovery Act requirements, and update the
         Federal Procurement Data System to indicate that the contracts are funded by the
         Recovery Act.

         Bureau of Consular Affairs Response: CA concurred with the recommendation,
         stating that “the contract should be modified to include the appropriate [Recovery Act]
         language.” “However,” according to CA, the Office of Acquisitions Management
         (AQM) “is responsible for these modifications and this recommendation should be
         directed to AQM.”

         OIG Analysis: OIG considers the recommendation resolved. The final report was
         modified to addresses the recommendation to A/LM/AQM. The recommendation can be
         closed pending OIG’s review and acceptance of documentation confirming that the
         contract has been modified to include the appropriate Recovery Act language.

Finding B. Required Monitoring Was Not Performed on Recovery Act
Contracts of Less Than $25,000
        AQM did not monitor Recovery Act-funded contracts of less than $25,000 to ensure that
contractors complied with required reporting and that reports were accurate. The FAR10 requires
all contractors providing products or services under the Recovery Act to report on their use of the
funds. Additionally, OMB guidance11 states that “agencies must ensure the information provided
in reports is consistent with the award (e.g., accurate award date, obligation amount, awarding
and funding agency, North American Industry Classification System . . . 12 code, progress,
cumulative amount invoiced, etc).” It further states that the agency review is intended to identify
“significant errors” or “material omissions” in these reports. Significant errors are defined in the
OMB guidance as errors in data fields, such as award amount, number of jobs retained or
created, award number, and recipient name. Material omissions include the failure of a Federal
Recovery Act award recipient to comply with reporting requirements as required by award terms.

        During our audit, we identified three contractors that did not report contracts on
FedReporting.gov. We also identified three other contractors that reported in one period
indicating that projects were not complete but then did not report the project statuses in future
periods. For the three contractors that did not report, two contracts contained Recovery Act
reporting requirements. The FAR13 requires the contractor to report on its use of Recovery Act
funds under the contract.


10
   FAR 52.204-11(d), “American Recovery and Reinvestment Act, Reporting Requirements.” (March 2009)

11
   OMB Sept. 30, 2009, memorandum, “Interim Guidance on Reviewing Contractor Reports on the use of Recovery

Act Funds in Accordance with FAR Clause 52.204-11,” att. A, question 1.

12
   The North American Industry Classification System is the standard used by Federal statistical agencies in 

classifying business establishments for the purpose of collecting, analyzing, and publishing statistical data related to 

the U.S. business economy.

13
   FAR 52.204-11(b)-(d). 

                                                      6
                                                 UNCLASSIFIED
                                               UNCLASSIFIED


         Although AQM established controls to track and review the required content of Recovery
Act reporting, it did not, however, review contracts of less than $25,000. A senior AQM official
stated that contracts of less than $25,000 were exempt from reporting. Further, the AQM official
stated that he interpreted the OMB14 guidance of “not required to report (e.g., loan or grant less
than $25,000)” to include contracts of less than $25,000. We determined that AQM did not
realize that separate guidance was provided for contracts that did not provide for a minimum
dollar threshold that excluded contracts valued under $25,000 from reporting. After we brought
this issue to the attention of AQM officials in April 2011, AQM provided a revised master file in
June identifying contractors required to report for the second quarter of 2011 and stated that this
master file included all 38 contractors. The 38 contractors had contracts under $25,000, for
which AQM assumed were “Not Required to Report” and had not submitted a “final” report on
FederalReporting.gov prior to the second quarter of 2011.15 AQM officials stated that the
responsible Recovery Act staff was working to achieve reporting compliance from these
contractors during the reporting period that began in July 2011.

         Recommendation 4. We recommend that the Bureau of Administration, Office of
         Logistics Management, Office of Acquisitions Management, provide documentation
         showing that the 38 contractors identified in the revised Recovery and Reinvestment Act
         information for the reporting period that began in July 2011 complied with the Federal
         Acquisition Regulation (FAR 52.204-11) and reported as required by FAR 52.204-11
         data such as contract award; expenditures; jobs created or retained; status of project; and,
         if applicable, subcontract information and compensation of executives.

         Bureau of Administration (A/LM/AQM) Response: A/LM/AQM concurred with the
         recommendation and attached, as part of its response, a spreadsheet containing “evidence
         that 36 of the 38 awards” were properly awarded and that the recipients were in
         compliance.” A/LM/AQM further stated, “The single non-compliant entity,” which had
         two awards, “has been de-registered in the Central Contractor Registry.”

         OIG Analysis: OIG considers the recommendation closed.

Finding C. Required Notices Were Not Posted Consistently
        AQM did not consistently post pre-award and post-award notices on FedBizOpps. Of 25
contract actions reviewed, we found that pre-award notices for four actions had not been posted
as required. The FAR16 requires pre-award notices to be posted on FedBizOpps for contract
actions that exceed $25,000. Post-award notices were posted for two of the four contracts, but
pre-award notices were not posted as required by the FAR. The other two contract actions did
not have any postings on FedBizOpps, for which a pre-award notice was required for both and a
post-award notice was required for one. Also, the FAR17 requires the posting of “post-award

14
   OMB M-10-34, “Updated Guidance on the American Recovery and Reinvestment Act,” pt. II(1), “Updated
Guidance on Reporting Procedures,” issued on Sept. 24, 2010.
15
   Contractors report “final” status when final payment has been received. No additional reporting is required after 

the period reported as “final.” 

16
   FAR 5.704.

17
   FAR 5.705. 

                                                    7
                                               UNCLASSIFIED
                                              UNCLASSIFIED


notices for any contract action exceeding $500,000, funded in whole or part by the Recovery
Act.”

       According to AQM officials, postings were inadvertently omitted by the respective
contract specialists. Without the required postings on FedBizOpps, the public and other
contractors were not made aware of contracting actions, thereby defeating the transparency and
accountability goals of the Recovery Act.

        Recommendation 5. We recommend that the Bureau of Administration, Office of
        Logistics Management, Office of Acquisitions Management, ensure that future
        modifications made to contracts and task orders funded by the American Recovery and
        Reinvestment Act are posted to the Web site FedBizOpps, as required by the Federal
        Acquisition Regulation (FAR 5.7).

        Bureau of Administration (A/LM/AQM) Response: A/LM/AQM agreed with the
        recommendation to take actions to comply with the requirements of FAR 5.7.

        OIG Analysis: OIG considers the recommendation closed.

Finding D. Contract Actions Did Not Consistently Include Required Clauses
          Recovery Act-funded contract actions did not consistently include all required
Recovery Act clauses, as required by the FAR.18 Of the 25 orders and contracts tested, five were
missing one or more of the required clauses. Two contracts did not include any of the required
clauses. The other three contracts were missing the Commercial Item clause19 and therefore also
the applicable audit and records clause.20 Two contracts were also missing the Whistleblower
Protection clause.21

       According to AQM officials, contracting officers inadvertently omitted the required
clauses. Without the required clauses outlined in the contracts, contractors were not aware that
they were expected to comply with contract provisions specific to the Recovery Act, including
those provisions necessary to ensure that transparency and accountability goals are met. In the
two instances in which the contract actions did not include any of the required clauses, the
contractor had other Recovery Act-funded contracts and reported all of them on
FederalReporting.gov, as required.

        When notified of the omissions, AQM issued modifications to the three active contracts
to add the required clauses and completed work on the fourth contract order. Because AQM
provided us documentation during the audit showing that modifications had been made to the


18
   FAR 52.212-5, “Contract Terms and Conditions Required to Implement Statutes or Executive Orders–

Commercial Items.”
 
19
   FAR 52.212-5(b).

20
   FAR 52.214-26, “Audit and Records–Sealed Bidding.” This clause applies to all contracts funded in whole or in 

part with Recovery Act funds, regardless of dollar value.

21
   FAR 52.203-15. 
                                                   8
                                              UNCLASSIFIED
                                               UNCLASSIFIED


three active contracts, we are not recommending that AQM take any additional action on this
issue.

Finding E. Passport Facility Was Not Built To Meet Leadership in Energy
and Environmental Design Criteria
         We found that the El Paso passport facility was not built in compliance with LEED
criteria, and no documentation was available to support approval to accept a facility that would
not meet such requirements. The U.S. Department of State American Recovery and
Reinvestment Act of 2009 External Program Plan, issued in June 2009 and updated in July 2010,
stated that the El Paso facility would “be designed and constructed in compliance with the latest
energy code and guidelines and in compliance with LEED criteria.” Additionally, as outlined in
its “Facilities Standards for the Public Buildings Service,”22 GSA requires new construction of
leased properties to obtain LEED certification. There was no documentation available at the
time of our audit to support GSA’s authority to recommend a site that would not meet the LEED
criteria or certification requirements or CA’s decision to proceed with a site whose size was not
in accordance with the Department’s program plan.

        CA personnel explained that during GSA’s search for a potential site in El Paso, only one
building site was identified as acceptable. The building owner, however, would not commit to
constructing the facility in accordance with LEED criteria, stating that based on previous
experience, it was cost prohibitive. Because of the number of limited potential sites and the
public need for the passport facility, GSA still recommended that the Department pursue the
location.

         Recommendation 6. We recommend that the Bureau of Administration, Office of
         Operations, Office of Real Property Management, obtain documentation from the
         General Services Administration (GSA) that provides support concerning approval to
         recommend and occupy a site for the El Paso, TX, passport facility that would not require
         construction in compliance with Leadership in Energy and Environmental Design
         (LEED) criteria. If a waiver for LEED certification for this facility was not already
         obtained, the Office of Facilities Management Services should request the waiver from
         GSA.

         Bureau of Administration (A/OPR/RPM) Response: A/OPR concurred with the
         recommendation but requested that “the recommendation in the final version of this
         report be changed to reflect” A/OPR/RPM “rather than A/OPR/FMS as the responsible
         office for obtaining the requested documentation from the General Services
         Administration.”

         OIG Analysis: OIG made the requested change and considers the recommendation
         resolved. The recommendation can be closed pending OIG’s review and acceptance of
         the requested documentation from the General Services Administration.

22
  U.S. General Services Administration, Office of the Chief Architect, “Facilities Standards for the Public Buildings
Service,” ch. 1, “General Requirements,” subpt. 1, “Environmental Policies and Practices,” issued in March 2005.

                                                    9
                                               UNCLASSIFIED
                                        UNCLASSIFIED



                                 List of Recommendations 

Recommendation 1. We recommend that the Bureau of Consular Affairs (CA), Office of the
Comptroller, provide documentation showing that it has taken actions to reverse the $1,385,743
incorrectly paid on telephone service contracts from CA Special Projects Fund 1044088553 and
instead use obligated funds from the Recovery and Reinvestment Act.

Recommendation 2. We recommend that the Bureau of Consular Affairs, Office of the
Comptroller, review the remaining $3.6 million in unliquidated Recovery Act obligations
($5 million in unliquidated obligations minus the $1.4 million for the telephone service
contracts) and determine whether the Bureau of Resource Management, Office of Domestic
Financial Services, used funds that were not provided by the American Recovery and
Reinvestment Act to pay for any of the other Recovery Act-obligated contracts and services.

Recommendation 3. We recommend that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, request that the General Services
Administration modify Task Orders GST0310DS6124, GST0311DS6004, GST0310DS6148,
GST0311DS6019, GST0311DS6020, and GST0311DS6014 for Contract FA00T03AHD0008 as
follows: identify the task orders as funded by the Recovery and Reinvestment Act, add the
required clauses, ensure that contract actions are subsequently publicized in accordance with
Recovery Act requirements, and update the Federal Procurement Data System to indicate that the
contracts are funded by the Recovery Act.

Recommendation 4. We recommend that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, provide documentation showing that the 38
contractors identified in the revised Recovery and Reinvestment Act information for the
reporting period that began in July 2011 complied with the Federal Acquisition Regulation (FAR
52.204-11) and reported as required by FAR 52.204-11 data such as contract award;
expenditures; jobs created or retained; status of project; and, if applicable subcontract
information and compensation of executives.

Recommendation 5. We recommend that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, ensure that future modifications made to
contracts and task orders funded by the American Recovery and Reinvestment Act are posted to
the Web site FedBizOpps as required by the Federal Acquisition Regulation (FAR 5.7).

Recommendation 6. We recommend that the Bureau of Administration, Office of Operations,
Office of Real Property Management, obtain documentation from the General Services
Administration (GSA) that provides support concerning approval to recommend and occupy a
site for the El Paso, TX, passport facility that would not require construction in compliance with
Leadership in Energy and Environmental Design (LEED) criteria. If a waiver for LEED
certification for this facility was not already obtained, the Office of Facilities Management
Services should request the waiver from GSA.




                                             10
                                        UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                Appendix A

                                       Scope and Methodology
        The Department of State, Office of Inspector General (OIG), Office of Audits, engaged
Cotton & Company, LLP (referred to as “we” in this report), to conduct a performance audit of
the Bureau of Consular Affairs (CA) Passport Facilities project funded by the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The audit objective was to determine
the Department’s performance in complying with source selection, pre-award and post-award
notices, contract administration, and management control processes over contracts issued with
Recovery Act funds.

        The scope of our audit included reviewing controls in place for Recovery Act funds of
$14,994,956 obligated by the Department for the Passport Facilities project. Our audit evaluated
contracts awarded to construct and equip five new passport agencies and expand two existing
locations that process passport applications and print passports.1 Our audit included testing
project expenses and reviewing overall project management for the seven facilities. It also
included reviewing obligations made to the General Services Administration (GSA) through
Reimbursable Work Authorizations (RWA) for site construction, renovation, design, and
construction management. Our testing focused on determining whether Recovery Act funds
were spent in accordance with the project plan and were controlled to ensure that waste, fraud,
and abuse did not occur. We tested expenditures incurred through February 23, 2011. We
conducted our audit from June 2010 to July 2011.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on audit objective.

        To meet the audit objective, we used the following methodology:

    	 Reviewed the approved U.S. Department of State American Recovery and Reinvestment
       Act of 2009 External Program Plan to ensure that the Passport Facilities project was
       identified and the plan was complete.

    	 Conducted discussions with CA personnel to obtain a general understanding of key
       personnel and bureaus involved and how the Passport Facilities project was managed.

    	 Reviewed documentation used to monitor the projects and evaluated whether reporting
       was provided to management to assess programmatic and financial project progress.


1
 The five new passport agencies are located in St. Albans, VT; Buffalo, NY; El Paso, TX; Atlanta, GA; and San
Diego, CA. The two existing facilities are the Portsmouth, NH, National Passport Center and the Hot Springs, AR,
Passport Center.
 
                                                  11
                                             UNCLASSIFIED
                                                UNCLASSIFIED



      	 Evaluated the monitoring of obligation, funding, and expenditure data; the assessments
         conducted to reallocate funds prior to the September 30, 2010, deadline; and the controls
         established to ensure monies allocated were used efficiently.

      	 Conducted discussions with Bureau of Administration officials and reviewed
         documentation available to determine how contracting opportunities were made available
         to potential sources and how decisions were made to use competitive practices or current
         contracts.

      	 Reviewed, for each contract and modification, required postings for the pre-award and
         post-award notices for each award to determine whether the notices were properly posted
         on the Web site FedBizOpps and whether they included Recovery Act terminology that
         was in accordance with the Federal Acquisition Regulation (FAR 5.7).

      	 Obtained and reviewed copies of all awards to ensure that the contracts were executed
         and included applicable required Recovery Act FAR clauses.

      	 Traced a sample of expenditures to related contracting actions, invoices, and approval
         documentation to determine whether invoices were properly supported, authorized, and
         considered necessary/reasonable under the project.

      	 Selected a sample of passport facility projects to visit2 and assessed controls in place
         during varying stages in the project’s life cycle: substantial completion of construction,
         acceptance of furniture and equipment, and completion of a functioning facility. At these
         facilities, we validated that projects were completed in accordance with the plan, monies
         were spent as intended, and assets purchased with Recovery Act monies were properly
         controlled.

      	 Reviewed the process used to monitor contractor Recovery Act reporting to determine
         whether controls were established to ensure timely and accurate reporting on
         FederalReporting.gov.

    Work Related to the Agreement With the General Services Administration

        The Department used the services of the General Services Administration (GSA) to lead
site acquisition evaluation, negotiation, contracting, construction, and construction management
for the five new passport facilities and the Portsmouth National Passport Center expansion. GSA
was not involved in the Arkansas Passport Center expansion, as it was contracted to the present
building owner by the Department. All requirements of the agreement between the Department
and GSA were specified in a memorandum of understanding. The main requirements related to
construction are as follows:

      	   Costs will be reimbursed by the Department; GSA will bill the Department on a monthly
           basis.

2
    The facilities visited were El Paso, Buffalo, and Portsmouth.
                                                     12
                                                UNCLASSIFIED
                                        UNCLASSIFIED




   	   Costs will include reimbursement of vendor invoices paid by GSA as well as
        administrative charges (calculated as a percentage of expenses) agreed to by both parties.

   	   The Department will provide all funding required by GSA to satisfy GSA’s obligations
        through Reimbursable Work Authorizations (RWA).

   	   GSA will be responsible for contracting all necessary vendors and for managing those
        contracts.

        GSA OIG’s Real Property Office is responsible for auditing the validity and
appropriateness of the use of Recovery Act funds. An OIG auditor with GSA stated that based
on the results of GSA’s risk assessment process, no audit of the Recovery Act funding awarded
to GSA for the Passport Facilities is planned. Therefore, our scope included performing the
following limited procedures on the $3,841,989 obligated to GSA through RWAs:

   	   Reviewed RWAs and verified appropriate approvals.

   	   Reviewed funding documents under RWAs.

   	   Evaluated whether funds provided through RWAs met obligation requirements.

   	   Recalculated project management set and sliding scale fees.

   	   Validated, through a walkthrough of three of the six facilities, that construction was
        performed and completed according to plan.

       We discussed the preliminary results of our audit with Department personnel during
fieldwork and presented our audit findings and recommendations to Department officials on
June 22, 2011. Responses to the draft report were provided by the Bureau of Consular Affairs,
Office of the Comptroller; the Bureau of Resource Management; the Bureau of Administration,
Office of Logistics Management, Office of Acquisitions Management; and the Bureau of
Administration, Office of Operations, Office of Real Property Management. (The responses are
in Appendices D, E, F, and G, respectively).

Review of Internal Controls and Automated Systems

        During our review of internal controls, we concluded that overall funds were awarded
and distributed in a prompt, fair, and reasonable manner and were used for authorized purposes.
Federal and Department standard processes and procedures were established. We did, however,
identify deficiencies in the execution of established procedures. Specifically, the Department did
not have controls in place to ensure the following:

   	 Service contracts for planned Recovery Act Passport Facility projects were not awarded
      and paid for using non-Recovery Act funding.

   	 Pre-award and post-award notices were posted in a timely manner.
                                            13
                                    UNCLASSIFIED
                                       UNCLASSIFIED




   	 Required Recovery Act clauses were included in contract actions.

   	 Recovery Act-funded contract awards of less than $25,000 were properly and accurately
      reporting.

       Implementing the recommendations contained in this report will assist in ensuring
compliance with stated procedures and contract requirements of the Bureau of Administration,
Office of Logistics Management, Office of Acquisitions Management.

Computer-Processed Data

        We used computer-processed data found in the Global Financial Management System to
obtain expenditure data for Recovery Act reporting and to test for the validity and accuracy of
contractor invoices paid, and we found no exceptions.




                                            14
                                       UNCLASSIFIED
                      UNCLASSIFIED

                                                                    Appendix B

      Passport Facility Project Obligations
      and Expenditures as of June 12, 2011

                                                      Obligated
                                                        Funds
                                         Funds        Available
                                     Expended as         as of
    Passport    Recovery Act          of June 12,      June12,
     Facility    Obligations             2011            2011
Atlanta, GA      $2,105,497.00       $1,315,934.35     $789,563
Buffalo, NY       2,322,173.94        1,673,478.53       648,695
El Paso, TX       2,139,557.38          905,717.44    1,233,840
Hot Springs, AR
                  1,548,751.53 1,159,943.15
APC                                             388,808
Portsmouth, NH
NPC               2,323,341.55 1,577,806.67     745,535
San Diego, CA     2,077,128.69 1,496,958.94     580,170
St. Albans, VT    2,478,506.21 1,834,259.84     644,246
Totals          $14,994,956.30 $9,964,098.92 $5,030,857

Source: Information provided by Bureau of Consular Affairs from

Global Financial Management Services report dated June 13, 2011.





                           15
                      UNCLASSIFIED
                                                                 UNCLASSIFIED
                                                                                                                  Appendix C

                                     Telephone Service Contract Obligations, Actions,
                                         and Payments From June and July 2011

                                                                                                                     Payments for
                                                                                                                     Telephones as
                                                                                                                     of July 7, 2011
                                                                                                                        out of CA
                                                                                                       TWD Contract Special Projects
                                                        Unliquidated      Expended         Total        Actions for       Fund
                                             Opened     Obligations in   according to   Obligated in    Telephonesb   1044088553c
Passport Facility                              Date       GFMS*a           GFMSa         GFMSa
Atlanta, GA                                   5/2/11       $262,700              $0         $262,700      $262,032          $215,712
Buffalo, NY                                  10/4/10        233,016                0         233,016       253,618           183,085
El Paso, TX                                  3/21/11        342,144            7,201         349,345       268,730           234,622
Hot Springs, AR (APC)                        10/18/10              0               0              0              0                 0
Portsmouth, NH (NPC)                         1/19/11        383,059                0         383,059       326,349           275,386
San Diego, CA                                3/21/11        346,629            2,864         349,493       296,256           243,298
St. Albans, VT                               2/28/11        340,817            3,436         344,253       258,941           233,640
                                               All
Totals
                                             opened      $1,908,365         $13,501       $1,921,866     $1,665,926       $1,385,743
    *Global Financial Management Services.
    a
       GFMS data provided by Bureau of Consular Affairs (CA) as of June 10, 2011.
     b
       GFMS data provided by the Bureau of Information Resource Management, Operations, Office of Enterprise
        Telecommunications, Wireless, and Data Services Division (IRM/OPS/ENM/TWD), as of June 2, 2011.
     c
       Bureau of Resource Management, Global Financial Services, Office of Domestic Financial Services, as of July 7,
        2011.




                                                                      16
                                                                 UNCLASSIFIED
                                 UNCLASSIFIED


                                                                                            Appendix D


                                                      United Stutl'S Depar tment of Stute

                                                      Office of the COIl1{Jtmllcr
                                                      Bureau of Consular Ajfairl'

                                                      W(lshing/on. D.C. 20520

UNCLASSIFIED                                          January 20, 2012

MEMORANDUM

TO:           DIG - Harold W. Geisel

FROM ,        CA/C-

SUBJECT: Audit of the Bureau of Consular Affairs Passport Facilities Us ing
         Funds Provided by the American Recovery and Reinvestment Act

      Thank you for the opportunity to respond to the draft rcpon. on the audit of
the funding provided by the American Recovery and Reinvestment Act for the
Bureau of Consular Affairs Passport Facilities Project. We have reviewed the
recommendations and provided our comments regarding the draft language.

Recommelldalion1. We recommend 1"01 I"e Bureau of COli suior Affairs (CA),
Office of tile Comptroller, provide documentation showing Ihal it "as taken
actions 10 reverse the $1,385, 743 incorrectly paid 011 telepl101le service cOlilracts
from CA Special Projects FUlld 1044088553 alld instead use obligaledfwlds
from 'he Recol'ery and Re;nl'estmellt Act.

      CNC agrees with this recommendation and discussed this issue with the
Bureau of Resource Management (RM) in June, 2011. RM indicated that it would
take action to reverse the $1,385.743 incorrectly paid on telephone service
contracts from CA Special Projects Fund 1044088553 and instead use obligated
funds from the Recovery and Reinvestment Act. CNC will follow up with RM 10
obtain documentation that demonstrates th is adjustment bas been made.

Recommelldalion 2. We recommend that the Bureau of Consular Affairs, Office
oj the Comptroller, review tire remailting $3.6 million in unliquidated Recol'ery
Act obligatiOlls ($5 million ill llnliqllidated obligatiollS minus lite $1.4 million for
the telephone serl'iee contracts) mId determine whether the Burea" of Resource
Managemelll, Office of Domestic FinOltc;al Services, llsedfunds tltat were not
provided by tlte American Recovery and Reinvestment Act to pay for any of the
other Reeo I'ery Act-obligated contracts and serl'iees.




                                      17 

                                 UNCLASSIFIED
                              UNCLASSIFIED



                                UNCLASSIFIED
                                    -2-


      CAlC understands the concerns outlined by the OIG in this recommendation.
CAlC/FMD will work with the Bureau of Resource Management to review the
remaining $3.6 million in unliquidated Recovery Act obligations.

Recommefldatioll3. We recomme"d ,hallhe Bureau o/Consular Affairs, Office
o/the Comptrol/er, in coordination with the Bureau of Informatioll Resource
Maltagemelll, Telecommunication! Wireless and Data Services DMsioll, request
,hal 'lie General Services AdminisJratiolllllodijy Task Orders GST03JODS6124,
GST031IDS6004, GST03IODS6148, GST0311DS6019, GST0311DS6020, a..d
GST031 IDS6014 Jor COll/racl FAOOT03Al1D0008 asfollows: idemify lile task
orders asJutlded by the Recovery alld Reinvestment Act, add 'he required
clauses, ensure that contract actiOIlS are subsequently publicized in accordance
with Recovery Act requiremellts, alld lIpdate Ihe Federal Procuremellt Dala
System to indicate Ihalthe contracts are funded by tire Recovery Act.

       CNC agrees the contract should be modified to include the appropriate
ARRA language. However, the Office of Acquisitions Management (NLMlAQM)
is responsible for these modifications and this recommendation should be directed
tOAQM.




                               UNCLASSIFIED




                                   18 

                              UNCLASSIFIED

                               UNCLASSIFIED

                                                                                        Appendix E


                                                      Uni ted State" Department of State




                                                       JAN 05 ZOlZ
UNCLASSIFIED

MEMORANDUM

TO:          OIG ~ Harold W. Geisel

FROM:        RM -

SUBJECT: OIG Draft Report on Audit or the Bureau or Consular Affairs Passport
         Facilities Using Funds Provided by the American Recovery and
         Reinvestment Act

In response to the Office or Inspector General 's Draft Report on Audit orthe
Bureau o r Consular Affairs Passport Facilit ies Using Funds Provided by the
American Recovery and Rein vestment Act, Global Financial Services (RMlGFS)
offers the rollowing responses.

Recommendation 2: We recommend thai the Bureau orConsular Affairs, Office
orthe Comptroller, review the remai ning $3 .6 million in un liquidated Recovery
Act obligations ($5 million in unl iq uidated obligat'ions minus the $1.4 million ror
the telephone service contracts) and determine whether the Bureau or Resource
Management, Office or Domestic Fi nancial Services, used runds that were not
provided by the American Recovery and Reinvestment Act to pay for any of dIe
other Recovery Act-obligated contracts and services. (Action: CA, in coordination
wi th RM)

Response: RM concurs with the recommendation. CA should coordinate with
RM/GFS Department Allotment Accounti ng and identify which obli gation(s)
require correction. RMlGFS will be glad to assist with this recommended
adjustment.


(b) (6)




                                   UNCLASS IFIED




                                    19 

                               UNCLASSIFIED
                                 UNCLASSIFIED

                                                                                         Appendix F



                                           United States Department of State
                                           Washington, D.C. 20520


                                           January 30, 2012



MEMORANDUM

TO:          OIG/AUD - Evelyn Klemstine

FROM:        AlLMlAQM-

SUBJECT: Draft Report - Draft Report on Audit of the Bureau of Consular
         Affairs Passport Facilities Using Funds Provided by the American
         Recovery and Reinvestment Act

Below is the Bureau of Administration's response to the subject draft audit report.


Recommendation 4. We recommend that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, provide
documentation showing that the 38 contractors identified in the revised Recovery
and Reinvestment Act information for the reporting period that began in July 20 II
complied with the Federal Acquisition Regulation (FAR 52.204-11) and reported
as required by FAR 52.204-11 data such as contract award; expenditures; jobs
created or retained; status of project; and, if applicable, subcontract information
and compensation of executives.

AlLM/AQM Response (01/30/12): AQM has attached (Attachment 1) a
spreadsheet containing the 38 awards noted above (some recipients had multiple
awards) and extract reports from FederalReporting.gov which supply evidence that
36 of the 38 awards have been reported and these recipients are in compliance.
The single non compliant entity, A & B Sollution Providers has 2 awards. This
entity has been de-registered in the Central Contractor Registry (CCR) and appears
to have been dissolved. Therefore, AQM is working with the program office to de-
obligate the remaining funds . Since the entity no longer exists, future reporting via
FederalReporting.gov will not occur.




                                      20 

                                 UNCLASSIFIED
                              UNCLASSIFIED





Recommendation 5. We recommend that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, ensure that future
modifications made to contracts and task orders funded by the American Recovery
and Reinvestment Act are posted to the Web site FedBizOpps, as required by the
Federal Acquisition Regulation (FAR 5.7).

A1LMlAQM Response (01/30/12): We agree.




Attachments
As stated




                                   21 

                              UNCLASSIFIED

                               UNCLASSIFIED

                                                                                      Appendix G



                                                    United States Department of State

                                                    IrashinKlOI/. D.C. 20S20

                                                     January 31, 2012

UNCLASSIFIED

MEMORANDUM

TO:                OIG/AUD- Evelyn R. Klemstine

FROM:              AlOPR ~
SUBJECT:           Draft Report on Audit of the Bureau of Consular Affairs
                   Passport Facilities Using Funds Provided by the American
                   Recovery and Reinvestment Act

     The following is the Bureau of Administration ' s response to
Recommendation 6 of the subject draft Audit Report.


Recommendation 6: We recommend that the Bureau of Administration, Office of
Operations, Office of Facilities Management Services, obtain documentation from
the General Services Administration (GSA) that provides support concerning
approval to recommend and occupy a site for the El Paso, TX, passport facility that
would not require construction in compliance with Leadership in Energy and
Environmental Design (LEED) criteria. If a waiver for LEED certification for this
facility was not already obtained, the Office of Facilities Management Services
should request the waiver from GSA.

Response: While we concur with this recommendation, we request that the
recommendation in the final version of the report be changed to reflect the Office
of Real Property Management (AlOPRlRPM) rather than AlOPRlFMS as the
responsible office for obtaining the requested documentation from the General
Services Administration.

AlOPRIRPM and the Bureau of Consular Affairs required that the General
Services Administration (GSA), which is the contracting office for this real
property lease acquisition, incorporate into the lease under Sections 1.2B Unique
Requirements (August 2008) and 3.2C Tenant Improvements Included in Offer
(August 2008) the following paragraphs:

                                 UNCLASSIFIED




                                    22 

                               UNCLASSIFIED
                                UNCLASSIFIED



                                 UNCLASSIFIED
                                     -2-

The tenant space must meet tbe requirements of Leadersbip in Energy and
Environmental Design for Commercial Interiors (LEED-CI) Certified Silver
level at a minimum. The successful Lessor, at the Lessor's expense, shall
obtain certification from tbe U.S. Green Building Council (USGBC) witbin
nine months of project occupancy. For requirements to achieve certification,
Lessor must refer to dates at tbe time of submittal of the LEED-CI Reference
Guide at http:/www.usgbc.org/LEED/CI. At completion of LEED
documentation and receipt of final certification, tbe Offeror must provide the
Government two electronic copies on compact disks of all documentation
submitted to USGBC. Acceptable file format is Adobe PDF copied to disk
from tbe LEED-Online workspace and templates. In addition, the Offeror
will provide the Government viewing access to the LEED- Online workspace
during design and through tbe term of the lease. Tbe project tenant
improvements shall incorporate any necessary design parameters for tbe
space to meet the requirements of LEED-CI into the Working Construction
Drawings. In accordance with the "Unique Requirements" paragrapb in tbe
Summary section of this Solicitation For Offers, tbe Lessor must coordinate
the requirements to meet LEED-CI Certified level for the tenant
improvements with tbe building sbell requirements.

The El Paso leases for Department of State, Consular Affairs and Diplomatic
Security were awarded to The Mills Building, 303 N. Oregon, El Paso, Texas on
March 22, 2010. The Mills Buildings submitted a request to the United States
Department of the Interior, National Park Service (see Historic Preservation
Certification Application Part I, Part II (3 pages), Evaluation/Amendment Sheet (5
pages) to be included for an individual listing in the National Register in El Paso,
Texas, which is attached. The rehabilitation of this property as described in the
Historic Certification Application is requ ired to meet certain Secretary of the
Interior's Standards for Rehabilitation. Some of these standards precluded LEEDS
Shell and Core alterations. The leased spaces (13,654 rental square feet (rsf)
(LXT16727 - Consular Affairs) and 5,699 rsf (LTX167l8 - Diplomatic Security)
were built to Department of State specifications which include requirements for
LEEDS Custom Interiors according to our Strategic Plan. This is confirmed in a
letter (see attached) to Adam Bodner, dated January 25, 2012 from Daphne E.
Hadley, Realty Contracting Officer, Public Buildings Service, General Services
Administration, Greater Southwest Region.

The El Paso passport facility was one of six ARRA-funded PPT projects
nationwide. In all instances the lease language included the LEED-Cl requirement.


                                 UNCLASSIFIED




                                     23 

                                UNCLASSIFIED

                              UNCLASSIFIED


                                UNCLASSIFIED
                                    -3-
AJOPRJRPM has requested that the GSA Project Managers assigned to those
projects (Atlanta, Georgia; Buffalo, New York; St. Albans, Vermont; San Diego,
California; and Portsmouth, New Hampshire) provide verification that the spaces
were built-out to the LEED-CI standard, and that the building owners are pursuing
LEED certifications for each one.




                                UNCLASSIFIED




                                   24 

                              UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

